No. Case:

In the
SUPREME COURT OF THE UNITED STATES
MARILU TOUMA, Petitioner,
vs.
THE GENERAL COUNSEL OF THE REGENT AND
ET AL, Respondents,
On Petition for Certiorari to the United States
Court of Appeals for the Ninth Circuit, San Francisco, California
No. Case: 18-55996
Southern District Court, Santa Ana, California.
No. 8:17-cv-01132-VBF-KS
Central District Court, Los Angeles, California.
No. 8:17-cv-01132-VBF-KS
CERTIFICATE OF COMPLIANCE
I, Marilu Touma, petitioner in this case, I certify on this date, September 18,
2019. as required by the Supreme Court Rule Court 33.1 (b) that the petition of
Writ of Certiorari does not exceed 5,484 words; excluding the parts of the
documents that are exempt by the Supreme Court, Rule 33.1 (d)

MARILU TOUMA
Petitioner^
4^ยง9 Mufjeffa Avenue #20
ShermdnOaks, CA91423

